                                                                 Issue Date
                                                                       September 29, 2011
                                                                  
                                                                 Audit Report Number
                                                                          2011-AO-1007




TO:        Cheryl J. Williams, Director, Office of Public Housing, 6HPH

           //signed//
FROM:      Nikita N. Irons, Regional Inspector General for Audit, Gulf Coast Region,
               11AGA

SUBJECT: Jefferson Parish Housing Authority, Marrero, LA, Did Not Always Comply
            With Public Housing Capital Fund Stimulus Recovery Act Obligation,
            Procurement, and Reporting Requirements


                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Jefferson Parish Housing Authority’s Public Housing Capital
             Fund Stimulus (formula) Recovery Act-funded grant as a part of our annual audit
             plan and goal to review funds provided under the American Recovery and
             Reinvestment Act of 2009. Our objective was to determine whether the Authority
             followed Recovery Act requirements. Specifically, we wanted to determine
             whether it (1) expended Recovery Act funds in accordance with requirements, (2)
             maintained inventory controls over its fixed assets to ensure that Recovery Act
             funds were used efficiently, (3) obligated Recovery Act funds in accordance with
             requirements, (4) followed the Recovery Act requirements when procuring goods
             or services, and (5) accurately reported its Recovery Act activities.

 What We Found


             The Authority generally ensured that it followed Recovery Act requirements
             when expending Recovery Act funds and maintaining inventory controls over its
             fixed assets, although we identified minor deficiencies in these areas. However, it
           did not properly obligate part of its Recovery Act funding by the obligation
           deadline and made purchases in excess of its need. In addition, the Authority did
           not always properly conduct its Recovery Act procurements. We attribute these
           issues to the Authority (1) not understanding the Recovery Act obligation
           requirements, (2) not being aware of the applicable Federal cost principles related
           to allowable costs, (3) not following its own procurement policies and procedures,
           and (4) not following Recovery Act procurement requirements. Consequently, it
           incurred $79,511 in ineligible and $30,000 in unsupported costs and could not
           provide reasonable assurance that Recovery Act funds were used effectively and
           efficiently or to benefit program participants.

           The Authority did not always completely or accurately report its Recovery Act
           activities and submitted its final Recovery Act report before it expended all of its
           Recovery Act funds. We attribute these issues to the Authority not understanding
           the Recovery Act reporting process and not providing adequate oversight of its
           contractor. Consequently, the public did not have access to accurate information,
           and the Authority’s use of Recovery Act funds was not transparent.

What We Recommend


           We recommend that the U.S. Department of Housing and Urban Development’s
           (HUD) Director of Public Housing require the Authority to (1) repay $79,511 in
           ineligible costs, and (2) support $30,000 or repay any amounts it cannot support.
           In addition, as related to its Federalreporting.gov submissions, HUD should
           require the Authority to (1) correct inaccurate data entered for the third and fourth
           quarters of 2009 and the first, second, and third quarters of 2010 and (2) correct
           and resubmit its final report in the correct reporting period, and submit the
           missing reports for the fourth quarter of 2010 and first quarter of 2011.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided a copy of the draft report to the Authority on September 14, 2011,
           and held an exit conference with the Authority on September 19, 2011. We asked
           the Authority to provide written comments to the draft report by September 20,
           2011, and it provided written comments on September 19, 2011. The Authority
           generally disagreed with finding one, but agreed with finding 2. The complete
           text of the auditee’s response, along with our evaluation of that response, can be
           found in appendix B of this report.




                                             2
                           TABLE OF CONTENTS

Background and Objective                                                             4

Results of Audit
      Finding 1: The Authority Did Not Always Follow Recovery Act Obligation and     5
      Procurement Requirements
      Finding 2: The Authority Did Not Properly Report Its Recovery Act Activities   10

Scope and Methodology                                                                15

Internal Controls                                                                    17

Appendixes
   A. Schedule of Questioned Costs                                                   19
   B. Auditee Comments and OIG’s Evaluation                                          20
   C. Reporting Review Results                                                       26




                                            3
                                BACKGROUND AND OBJECTIVE

The Jefferson Parish Housing Authority is a public housing agency located at 1718 Betty Street,
Marrero, LA. The Authority manages 200 public housing units, 100 apartments, and 4,663
Section 8 vouchers.

The American Recovery and Reinvestment Act of 2009 became Public Law 111-5 on February
17, 2009. It appropriated $4 billion for Public Housing Capital Fund Stimulus Recovery Act-
funded grants to carry out capital and management activities for public housing agencies. Of the
$4 billion, it allocated $3 billion for formula grants and $1 billion for competitive grants. On
March 18, 2009, HUD and the Authority executed amendment number 16 to the Authority’s
annual contributions contract, in which HUD agreed to provide Recovery Act assistance to the
Authority in the amount of $390,538.

The Recovery Act required the Authority to (1) obligate 100 percent of the funds within 1 year
of the date on which the funds became available to the Authority for obligation, (2) expend 60
percent of the funds within 2 years, and (3) expend 100 percent of the funds within 3 years of
such date. HUD made Recovery Act formula grants available on March 18, 2009, resulting in an
obligation deadline of March 17, 2010.

HUD required the Authority to use its formula grant for eligible activities already identified in
either its annual statement or 5-year action plan.1 HUD also required the Authority to report its
obligations and expenditures in HUD’s Line of Credit Control System (LOCCS). Additionally,
two specific provisions in the Recovery Act required the Authority to report quarterly. Section
1512 required the Authority to report on activities, job creation, and job retention, and Section
1609 required the Authority to report on the status of compliance with the National
Environmental Policy Act for all Recovery Act-funded projects.

According to LOCCS data, the Authority allocated all of its funding by the statutory obligation
deadline of March 17, 2010. However, HUD recaptured $11,000 of the Authority’s obligated
funding due to a lack of documentation supporting that the Authority committed the $11,000
before the March 17, 2010, obligation deadline. Thus, HUD amended the Authority’s Recovery
Act annual contributions contract, effective January 5, 2011, to reduce the grant to $379,538. As
of May 3, 2011, the Authority had spent its entire Recovery Act Capital Fund grant totaling
$379,538.

Our objective was to determine whether the Authority followed the Recovery Act requirements.
Specifically, we wanted to determine whether the Authority (1) expended Recovery Act funds in
accordance with requirements, (2) maintained inventory controls over its fixed assets to ensure
that Recovery Act funds were used efficiently, (3) obligated Recovery Act funds in accordance
with requirements, (4) followed Recovery Act requirements when procuring goods or services,
and (5) accurately reported its Recovery Act activities.

1
  The annual statement, annual plan, and 5-year action plan are all components of the Authority’s comprehensive plan. The HUD-approved
comprehensive plan sets forth all of the Authority’s physical and management improvement needs for its public housing developments.




                                                                     4
                                                 RESULTS OF AUDIT

Finding 1: The Authority Did Not Always Follow Recovery Act
Obligation and Procurement Requirements
The Authority did not always comply with Federal regulations when obligating Recovery Act
funds. Specifically, it did not obligate 100 percent of its Recovery Act funding by the required
March 17, 2010, obligation deadline and purchased 66 refrigerators in excess of its need. In
addition, the Authority did not always properly conduct its Recovery Act procurements. These
conditions occurred because the Authority (1) did not understand Recovery Act obligation
requirements, (2) was not always aware of the applicable Federal cost principles related to
allowable costs, (3) did not follow its own procurement policies and procedures, and (4) did not
follow Recovery Act procurement requirements. As a result, it incurred $79,511 in ineligible
costs and $30,000 in unsupported costs and could not provide reasonable assurance that
Recovery Act funds were used effectively and efficiently or to benefit program participants.



    Recovery Act Funds Were Not
    Obligated by the Required
    Deadline

                        The Authority failed to obligate all of its Recovery Act funds by the required
                        deadline. HUD’s Office of Public and Indian Housing (PIH) Notice 2009-12
                        required the Authority to obligate 100 percent of the Recovery Act funds and record
                        the obligation in LOCCS by March 17, 2010. If the Authority did not comply, HUD
                        could recapture the funds that were not obligated by the deadline, and the Authority
                        would no longer be authorized to expend that funding. The Notice2 defines an
                        obligation as the cumulative amount of commitments entered into by the Authority.

                        A review of LOCCS data determined that as of February 3, 2010, the Authority
                        reported that it had obligated $390,538. According to its annual statement, this
                        amount included $100,000 for refrigerators and $249,538 for flooring work.3

                        The Authority obtained the refrigerators using the small purchase procurement
                        procedures; however, the Authority did not purchase or have a commitment for all
                        of the refrigerators before March 17, 2010, as shown below.

                                                                    Refrigerators
                           Description                                        Eligibility determination   Dollar amount
                           50 refrigerators purchased before March 17, 2010 Eligible                             $21,250
                           185 refrigerators purchased after March 17, 2010 Ineligible                           $78,625
                           Amount not used toward refrigerator purchases      Ineligible                           $125
                           Total amount allocated to refrigerators                                              $100,000

2
    Paragraph VII.
3
    The remaining grant amount was $11,000 for site improvements and $30,000 for fees and costs.



                                                                       5
                      The Authority could provide documentation showing only that it purchased 50
                      refrigerators, totaling $21,250, before the obligation deadline. It purchased the
                      remaining 185 refrigerators after the obligation deadline, generating $78,625 in
                      ineligible costs. In addition, since the refrigerators cost $425 each, the Authority
                      used only $99,875 of the $100,000 set aside for the refrigerators, leaving a balance
                      of $125. Therefore, the Authority did not have a commitment; thus, no obligation
                      before the obligation deadline, generating a total of $78,750 in ineligible costs
                      related to the refrigerators.

                      Additionally, although the Authority reported that it obligated $249,538 for
                      flooring work, the actual contract amount used to obligate the funds totaled
                      $248,777, a $761 difference. Since the contract totaled only $248,777, the
                      Authority did not have a commitment for the remaining $761; and therefore no
                      obligation before the obligation deadline, generating $761 in ineligible costs.

    Excess Refrigerators Were
    Purchased

                      The Authority purchased more refrigerators than it needed. According to 2 CFR
                      Part 225, appendix A, an allowable cost must be (1) necessary and reasonable for
                      proper and efficient performance and administration of Federal awards and (2)
                      allocable to Federal awards. HUD also provided guidance4 to housing authorities
                      explaining that inventories should not get too large and unnecessarily tie up funds
                      which it could use for other important items. It also stated that well-run housing
                      authorities should consider that excess inventory would take up storage space,
                      which is normally limited in smaller housing authorities such as the Authority.

                      Despite this guidance, the Authority purchased 235 refrigerators but only needed
                      169, leaving 66 excess refrigerators that it had kept in storage for more than a
                      year.5 Additionally, although the Authority stated that 33 residents refused the
                      new refrigerators; it should have ensured it needed the refrigerators before
                      purchasing them. The purchase of these excess refrigerators (1) tied up Recovery
                      Act funds6 that could have been used for another purpose, (2) was not reasonable
                      or necessary, and (3) was not allocable to the Recovery Act funds since the
                      Authority had not capitalized on the expected benefit.

    Procurements Were Not
    Properly Conducted


                      The Authority did not always properly conduct its Recovery Act procurements.
                      Recovery Act requirements in PIH Notice 2009-12 required the Authority to

4
  HUD Maintenance Guidebook 1 - Chapter 8, Inventory Procurement
5
  The Authority purchased the refrigerators between March and May 2010.
6
  We are not disallowing the amount paid for these 66 refrigerators ($28,050) based upon the criteria in this section, since the amount is already
included in the funds deemed unallowable under the obligation discussion (above) related to the refrigerators.



                                                                         6
                         follow 24 CFR Part 85, which includes procurement requirements. The Authority
                         conducted four procurements, in which it paid its contractors and vendors a total
                         of $379,538, resulting in two executed contracts, one vendor selection, and one
                         contractor selection as shown in the table below.

                                    Contractor/vendor                           Description of services                     Contract/vendor
                                                                                                                              payments
                           Continental Flooring Company,                   Replace tile within selected                        $248,774
                           Inc.                                            Authority public housing units
                           Louisiana Housing Development                   Construction management                                $30,000
                           Corporation
                           Lowe’s Home Centers, Inc.                       Purchase energy star appliances                        $99,875
                                                                           - refrigerators
                           Show Me Quality Construction,                   Replace tile within selected                            $8897
                           LLC                                             Authority public housing unit
                                       Total                                                                                     $379,538

                         A review of the four procurement files determined that the Authority did not
                         always comply with its policies and procedures or Federal requirements. As
                         specifically related to the Louisiana Housing Development Corporation, along
                         with other issues,8 the procurement file did not include (1) documentation
                         showing that the Authority conducted an independent cost estimate or price
                         analysis or (2) sufficient documentation showing that the costs incurred were
                         reasonable. When asked, the Authority could not provide documentation and,
                         therefore, could not support that the $30,000 paid to the Corporation for this
                         contract was reasonable.

                         Although they did not affect the eligibility of costs, other violations identified in
                         the remaining three procurement files included a lack of documentation showing
                         that the Authority

                                   Had sufficient records to detail the history of its procurement,9 such as an
                                    executed contract, and notifications to the rejected bidders;
                                   Ensured that it did not purchase unnecessary or duplicative items;10
                                   Verified that it selected licensed, eligible, and nondebarred contractors;11
                                   Included required clauses in contracts, such as the value-engineering
                                    clause;12
                                   Prohibited procuring with geographical preferences in evaluating bids;13
                                   Monitored its contractors;14 and
7
    The total amount paid to Show Me Quality Construction was $2,161; however, the amount funded by the Recovery Act was $889.
8
    The Corporation procurement file also did not include (1) a rationale for the procurement method selected; (2) notifications to rejected bidders;
(3) a certification or documentation showing that the Authority verified that the bidders and the selected contractor were licensed, eligible, and
not debarred; (4) assurance that unnecessary or duplicative items were not purchased; and (5) adequate documentation supporting that the
Authority monitored the contractor. The Authority also did not ensure that it gave priority to Recovery Act projects by awarding the contract
based on bids within 120 days from February 17, 2009.
9
  24 CFR 85.36(b)9
10
   24 CFR 85.36(b)4
11
   24 CFR 941.205(d)
12
   24 CFR 85.36(i) and 24 CFR 85.36(b)7
13
   24 CFR 85.36(c)2



                                                                           7
                                Ensured that it gave priority to Recovery Act projects by awarding the
                                 contract based on bids within 120 days from February 17, 2009.15

     The Authority Did Not
     Understand or Follow
     Requirements

                          The Authority did not understand Recovery Act obligation requirements. It stated
                          that it believed that by obtaining three quotes for the purchase of the refrigerators,
                          it met the obligation requirements. Although sufficient to meet the procurement
                          requirements, this action did not meet Recovery Act obligation requirements.
                          After we questioned the eligibility of the obligation for the refrigerators, the
                          executive director provided a letter, dated March 1, 2010, addressed to Lowe’s,
                          stating that the Authority wanted to purchase 200 refrigerators. However, this
                          letter (1) did not fully address the number of refrigerators purchased, as the
                          Authority purchased 235 refrigerators; (2) was not located in the Authority’s
                          original or HUD’s files; and (3) was not accompanied by corresponding
                          documentation from Lowe’s, showing that Lowe’s ordered or planned to order the
                          refrigerators. Therefore, the Authority did not meet Recovery Act obligation
                          requirements and further showed that it did not understand the requirements.

                          In addition, the Authority was not always aware of Federal cost principles related
                          to allowable costs. Authority staff admitted that the Authority had limited storage
                          space, indicating that the Authority did not adequately consider its need and
                          available storage space when purchasing the excess refrigerators.

                          Further, when conducting its Recovery Act procurements, the Authority did not
                          comply with its own procurement policies and procedures, Federal procurement
                          requirements, or HUD procurement guidance. For example, although HUD
                          provided the Authority with a procurement checklist to ensure compliance with
                          Federal requirements, the Authority did not use the checklist when conducting its
                          procurements.


     Conclusion


                          Because the Authority did not comply with Federal regulations when obligating
                          Recovery Act funds, it incurred $79,511 in ineligible costs and $30,000 in
                          unsupported costs. Additionally, it could not provide reasonable assurance that it
                          used Recovery Act funds effectively and efficiently or to benefit program
                          participants.



14
     24 CFR 85.40
15
     Notice PIH 2009-12



                                                            8
Recommendations



          Since the Authority had completed its Recovery Act program, we did not provide
          recommendations related to the causes or the procurement violations, for this
          finding. However, we do recommend that HUD’s Director of Public Housing
          require the Authority to

          1A.     Repay to the U.S. Treasury $78,750 in ineligible costs paid for
                  refrigerators that it did not obligate by March 17, 2010.

          1B.     Repay to the U.S. Treasury $761 for ineligible costs paid for flooring
                  installation that that it did not obligate by March 17, 2010.

          1C.     Support the cost reasonableness of the $30,000 paid to the Louisiana
                  Housing Development Corporation or repay to the U.S. Treasury any
                  amounts it cannot support.




                                           9
Finding 2: The Authority Did Not Properly Report Its Recovery Act
Activities
The Authority did not always follow Federal requirements when entering Recovery Act
information into Federalreporting.gov. Specifically, it did not always completely or accurately
report its Recovery Act (1) project information, (2) grant funds received or invoiced, (3)
expenditure amounts, (4) vendors and vendor transactions or payments, or (5) number of jobs
created or retained. In addition, the Authority submitted its final Recovery Act report before it
expended all of its Recovery Act funds. These conditions occurred because the Authority did not
understand the Recovery Act reporting process and did not provide adequate oversight of its
contractor to ensure that the contractor accurately reported Recovery Act information. As a
result, the public did not have access to accurate information related to the Authority’s
expenditures of Recovery Act funds, and the Authority’s use of Recovery Act funds was not
transparent.



     Incomplete or Inaccurate
     Information Was Reported


                         The Authority did not completely or accurately report on all items required by the
                         Recovery Act. Recovery Act reporting requirements in 2 CFR Part 176 required
                         the Authority to report the following information in Federalreporting.gov, a
                         nationwide data collection system:

                                    Amount of the Recovery Act grant award,
                                    Project information including the award and project descriptions,
                                    Grant funds invoiced or received,
                                    Expenditure amounts,
                                    Listing of vendors receiving Recovery Act funds,
                                    Vendor transactions or payments, and
                                    Number of jobs created or retained.

                         In addition, Office of Management and Budget (OMB) guidance M-09-21
                         required the Authority to establish internal controls to ensure data quality,
                         completeness, and accuracy and the timely reporting of its Recovery Act funds.

                         The Authority submitted its reports in a timely manner. However, when it
                         reported on the items required by the Recovery Act, it did not always ensure that
                         it reported complete and accurate information as shown in the table below.16



16
     See Appendix C for a complete list of specific reporting issues identified.



                                                                           10
         Were the items required by the Recovery Act reported completely or accurately for reports submitted
                                                     (yes or no)?
         Reporting        July-September October-December January-March April-June July-September
          element               2009               2009                2010           2010              2010
                           (3rd quarter)      (4th quarter)       (1st quarter)  (2nd quarter)     (3rd quarter)

Recovery Act grant                     Yes                       Yes                  Yes   Yes       Yes
award amount
Project information                    No                        No                   No    No        No
Grant funds                            Yes                       Yes                  No    No        No
received or invoiced
Expenditure                            Yes                       Yes                  No    No        No
amounts
Listing of vendors                      No                       No                   No    Yes       Yes
receiving Recovery
Act grant funds
Vendor transactions                   N/A17                    N/A18                  No    No        No
or payments
Number of jobs                         Yes                       Yes                  No    No        No
created or retained

                        As shown in the table above, for all of the quarterly reports submitted, the
                        Authority did not accurately report its project information, including the award
                        and project descriptions. For the third quarter of 2009, the Authority did not enter
                        a project or award description. As an example related to the award description,
                        two of five reports showed that 200 units received refrigerators; however, only
                        169 units received refrigerators.

                        In addition, for three of five quarterly reports, the Authority did not accurately
                        report the (1) grant funds received or invoiced, (2) expenditure amounts, (3)
                        listing of vendors receiving Recovery Act grants funds or the vendor transactions
                        or payments, or (4) number of jobs created or retained.

                        Reported grant funds received or invoiced not accurate: For the first quarter of
                        2010, the Authority underreported its grant funds received or invoiced by
                        $21,250, and for the second and third quarters of 2010, it over reported its grant
                        funds received or invoiced by $29,023 and $11,889, respectively. Grant funds
                        received or invoiced amounts reported are shown in the table below.




17
     Payments had not been made to vendors; therefore, the item was not applicable.
18
     Payments had not been made to vendors; therefore, the item was not applicable.



                                                                        11
                                               Grant funds received or invoiced
                          Quarterly reporting period       Reported       Actual                Difference
                                                            amount        amount             (underreported)/
                                                                                               over reported
                     July-September 2009 (3rd)                            $0         $0
                     October-December 2009 (4th)                          $0         $0
                     January-March 2010 (1st)                          $21,250     $42,500      ($21,250)
                     April-June 2010 (2nd)                             $378,649   $349,626       $29,023
                     July-September 2010 (3rd)19                       $390,538   $378,649       $11,889

                    Reported expenditures not accurate: As related to the expenditure amounts, for
                    the first quarter of 2010, the Authority underreported its expenditures by $10,625
                    and for the second and third quarters of 2010, the Authority over reported its
                    expenditures by $132,679 and $11,889, respectively. Expenditure amounts
                    reported are shown in the table below.

                                                            Expenditure amounts
                          Quarterly reporting period             Reported       Actual          Difference
                                                                  amount       amount        (underreported)/
                                                                                               over reported
                    July-September 2009 (3rd)                             $0         $0
                    October-December 2009 (4th)                           $0         $0
                    January-March 2010 (1st)                           $21,250    $31,875        ($10,625)
                    April-June 2010 (2nd)                              $378,649   $245,970       $132,679
                    July-September 2010 (3rd)20                        $390,538   $378,649        $11,889

                    Vendors and vendor payments not included: Once the Authority selected or
                    procured a vendor, it did not always include the vendors in its reported data and
                    did not always accurately report the payment amounts made to its vendors. For
                    example, the Authority did not include the Louisiana Housing Development
                    Corporation during the third and fourth quarters of 2009 and first quarter of 2010.
                    In addition, it did not report vendor payments made to Lowe’s in the first quarter
                    of 2010, and the vendor payments reported for Continental were not accurate for
                    the first quarter of 2010 through the third quarter of 2010.

                    Number of jobs created or retained not accurate: OMB guidance M-10-08
                    required the Authority to use the formula below to calculate the number of jobs.


                                                                                                        *

                    *FTE = full-time equivalent21

                    However, based on the supporting documentation provided by the Authority, the
                    Authority did not accurately calculate the number of jobs created or retained for
                    three of five quarters. For example, for the first quarter of 2010, the Authority
19
   This was the final report submitted by the Authority.
20
   This was the final report submitted by the Authority.
21
   The formula was obtained directly from OMB guidance M-10-08.



                                                                  12
                        reported 2.81 jobs created, but, based on the documentation, the reported number
                        of jobs created or retained should have been 1.23.

     The Final Report Was
     Submitted Before All Funds
     Were Expended

                        The Authority submitted its final Recovery Act report before it expended all of its
                        Recovery Act funds in violation of Recovery Act requirements. According to
                        OMB guidance M-10-34, a project is considered final for Recovery Act reporting
                        purposes when the following requirements have been met:

                                  All Recovery Act funds have been expended,
                                  All or nearly all Recovery Act funds have been invoiced and received,
                                  No additional jobs will be funded,
                                  The project status is complete, and
                                  The project status is marked as “fully complete.”

                        The Authority marked the report for the third quarter of 2010 as the final project
                        report. However, it had not expended the entire grant amount of $379,538. As of
                        September 30, 2010, the Authority had expended $378,649, leaving $889
                        remaining to be expended. It did not expend the remaining $889 until May 2011.
                        Therefore, the Authority should not have submitted its final report until the
                        second quarter of 2011, instead of the third quarter of 2010. Additionally,
                        because the Authority marked the report for the third quarter of 2010 as final, it
                        had missing reports for three reporting periods, including the fourth quarter of
                        2010 and the first and second quarters of 2011.22

 The Authority Did Not
 Understand the Reporting
 Process

                     The Authority hired a contractor23 to complete its Recovery Act reporting because it
                     did not understand the Recovery Act reporting process. The contractor (1)
                     coordinated report preparation, review, and submission; (2) used the data provided
                     by the Authority to author the job impact assessment; (3) completed quarterly
                     activity description and award description narratives; (4) verified that the report was
                     complete; (5) checked for errors and omissions; (6) cross-checked fields for
                     conflicting data; and (7) submitted the report to Federalreporting.gov.

                     Although the Authority hired a contractor, the Authority was responsible for
                     providing supporting data to the contractor, reviewing and approving all narrative
                     descriptions, and approving the final report before submission. However, because

22
     This would have been the Authority’s final report.
23
     This contractor was not paid with Recovery Act funds.



                                                             13
         the Authority did not understand the Recovery Act reporting process, it could not
         provide adequate oversight of its contractor and ensure that the contractor
         accurately reported the Authority’s Recovery Act information.


Conclusion


             Because the Authority did not always completely and accurately report its
             Recovery Act information, the public did not have access to accurate information
             related to the Authority’s expenditures of Recovery Act funds, and the
             Authority’s use of Recovery Act funds was not transparent.


The Authority Took Action


             After the exit conference, the Authority provided documentation showing that it
             took actions to correct the reporting issues identified in the finding. We
             acknowledge the Authority for its actions towards resolving the
             recommendations.

Recommendations



             Since the Authority had completed its Recovery Act program, we did not provide
             recommendations related to the causes for this finding. However, we do
             recommend that HUD’s Director of Public Housing require the Authority to

             2A.    Correct inaccurate data entered in Federalreporting.gov for the third and
                    fourth quarters of 2009 and the first, second, and third quarters of 2010.

             2B.    Correct and resubmit its final Federalreporting.gov report in the correct
                    reporting period, which should have been the second quarter of 2011. In
                    correcting this report, the Authority should also submit the missing reports
                    for the fourth quarter of 2010 and first quarter of 2011.




                                             14
                                    SCOPE AND METHODOLOGY

We conducted our audit at the Authority’s office in Marrero, LA, and the HUD Office of
Inspector General’s (OIG) office in New Orleans, LA. We performed our audit between April
and August 2011.

To accomplish our audit objective, we

         Obtained and reviewed laws, regulations, and program guidance relevant to the Recovery
          Act.
         Interviewed HUD and Authority staff.
         Reviewed the Authority’s audited financial statements.
         Reviewed HUD’s monitoring reviews of the Authority’s Recovery Act activities.
         Reviewed the Authority’s annual contributions contract amendment, annual plan, annual
          statements, and 5-year plan.
         Reviewed the Authority’s board meeting minutes.
         Reviewed the Authority’s procurement, accounting, and inventory policies.
         Reviewed the Authority’s Recovery Act-related procurement files.
         Reviewed and analyzed the Authority’s Recovery Act-related obligation and expenditure
          files.
         Conducted site visits and physical inventory counts.
         Reviewed Recovery Act reporting documentation as available.

The Authority conducted four procurements of Recovery Act funds totaling $379,541,24 which
resulted in two executed contracts, one vendor selection, and one contractor selection.25 We
used the 100 percent selection method to review the four procurement files and evaluated
whether the Authority conducted the procurements in accordance with HUD and Recovery Act
requirements. We also assessed whether the Authority’s obligations under these procurements
were eligible and properly supported. To determine the amount of the Authority’s obligations,
we used HUD’s LOCCS data. Through file reviews, we determined that the LOCCS data were
generally reliable.

In addition, we used a statistical attribute sampling method at a 95 percent confidence level to
review 61 (36 percent) of 169 units that received refrigerators purchased with Recovery Act
funding to verify whether refrigerator installations were completed and that the refrigerators
existed. Through site visits, we determined that the unit listing data were generally reliable.

We also used the 100 percent selection method to review 66 refrigerators purchased with
Recovery Act funding that were held in the Authority’s storage facility to verify whether the


24
   The Recovery Act grant totaled $379,538. Although, the procurements appeared to exceed the Recovery Act grant, the contract for one
procurement only expended $248,774 and had a $3 surplus. The $3 surplus was later added to a separate procurement. Therefore, the
Authority’s procurements did not exceed its grant amount.
25
   Regarding the vendor and contractor selection, the Authority did not execute a contract since they were small purchases.



                                                                    15
refrigerators existed. Through physical inventory counts and observation, we determined that the
refrigerator model numbers were generally reliable.

Further, we obtained and reviewed all 15 (100 percent) payment vouchers totaling $379,538
applicable to the Recovery Act expenditures. We reviewed the payment vouchers to determine
whether the Authority’s Recovery Act disbursements were eligible and supported. Through a
file review, we determined that the disbursement data were generally reliable.

Our audit scope covered March 18, 2009, through May 31, 2011. We expanded the scope as
needed to accomplish our audit objectives. We conducted the audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




                                                16
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                      Controls over obligations and expenditures related to Recovery Act
                       activities.
                      Controls over procurement concerning Recovery Act activities.
                      Controls over inventory of appliances purchased with Recovery Act
                       funding.
                      Controls over Recovery Act reporting.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:

                  The Authority did not obligate its Recovery Act funds before the obligation
                   deadline (see finding 1).


                                                 17
              The Authority did not properly procure Recovery Act-funded contracts (see
               finding 1).
              The Authority did not always accurately report its Recovery Act information
               (see finding 2).

Separate Communication of
Minor Deficiencies

           Minor internal control and compliance issues were reported to the Authority and
           HUD in a separate memorandum dated September 16, 2011.




                                           18
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                   Recommendation           Ineligible 1/   Unsupported 2/
                       number
                           1A                     $78,750

                           1B                        $761

                           1C                                       $30,000

                          Total                   $79,511           $30,000

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                   Auditee Comments


              HOUSING AUTHORITY OF JEFFERSON PARISH

              9/19/2011
              Nikita N. Irons, Regional Inspector General for audit

              Subject: Jefferson Parish Housing Authority, ARRA Grant funds, finding
              response.

              HAJP RESPONSE TO DRAFT FINDINGS OUTLINE BY HUD PIG -
              September, 2011
              Prepared by Barry Bordelon, Executive Director

              FINDING CAPTION 1: The Authority did not always comply with
              Federal regulations when obligating Recovery Act funds.
              Specifically, the Authority did not (1) properly commit 100 percent
              of its Recovery Act funding by the required March 17, 2010
              obligation deadline and generated unallowable costs, when it
              purchased 66 refrigerators in excess of its need, or (2) properly
              procure its contracts.

Comment 1     HAJP did comply with Federal regulations when obligating Recovery
              Act funds.

              HAJP was monitored and guided by the local HUD office throughout
              this process from start to finish. HAJP received two letters from Cheryl
              Williams, HUD Director, New Orleans, regarding their review of our
Comment 3     administration of the ARRA program. These letters state that the HAJP
              has obligated 100% of the grant before the March 17, 2010 deadline.
              See Exhibits A -1 and A-2. Also, see Exhibits A-3 through A-6,
Comment 3     Recovery Act Capital Fund Grant, Obligation Submission Review
              Requirements (OSRR) forms completed by K.T. Williams on February
              17, 2010 during a field review, again indicating HAJP was 100%
              obligated.




                                          20
Comment 1     HAJP was required to obligate not expend grant funds by March 17,
              2010. The bid selection for the refrigerators was concluded on March 1,
              2010 with a letter sent to Lowes notifying it was the low bid and
              authorizing the order of 200 refrigerators. See Exhibit B-1. Thus, the
              obligation was complete. The delivery of the 235 units took place on 9
              different occasions beginning March 9, 2010 as Lowes could not
              possibly stock and deliver all 235 units at one time. The last delivery
              took place May 19, 2010. Though some of the refrigerators were
              delivered after the March 17th date, all of the refrigerators were ordered
              by the deadline thus funds were committed and obligated. Per ARRA -
Comment 1     VII. Definitions. Obligation: items are considered to be obligated when
              the first item is started (delivered).

Comment 1     At the time of obligation, HAJP obligated $100,000 for 200 Energy Star
              refrigerators @ $500.00 each. However, after receiving the 3 quotes
              the HAJP was able to get the refrigerators for $425, leaving an
              additional $15,000 available. I contacted K.T. Williams via telephone
              and email. She informed me that I could only purchase additional
Comment 1     Energy Star refrigerators as thats what HAJP was approved for
              previously. See Exhibit C-1. Therefore, an additional 35 refrigerators
              were ordered for a total of 235 refrigerators. These 35 refrigerators
Comment 2     were to serve as replacement inventory. Between the time HAJP
              conducted a needs assessment and the time of ordering the
              refrigerators, a period of approximately 6 months, 33 residents either
              refused the new refrigerator due to cubic feet capacity or had acquired
              their own new refrigerator. Therefore, 167 refrigerators were placed in
              resident units and we were forced to place the 33 refused refrigerators
              in replacement inventory.

Comment 1, 3 The HAJP did not incur $109,511 of ineligible or unsupported cost.
        4

Comment 1     The $78,750 paid for refrigerators was properly obligated by the March
              17, 2010 deadline. This amount was obligated even though it may not
              have been paid to Lowes until after the March 17, 2010 date ARRA
              requires obligation by March 17, 2010 HAJP met the deadline. HAJP
              has until March 17, 2012 to actually expend the funds.




                                          21
            Finding Caption 2: The Authority Did Not Always Accurately Report Its
            Recovery Act Information.

Comment 5   HAJP hired an outside agency that has a history of performing
            compliance reporting for HUD. I have since instructed that agency to
            review all data submissions and to make any necessary corrections
            and resubmit.




                                       22
                         OIG Evaluation of Auditee Comments

Comment 1   We disagree. An obligation occurs when the Authority enters into a commitment.
            The Authority was required to obligate not expend grant funds by March 17,
            2010. However, the mere obligation of $100,000 in LOCCS for the purchase of
            200 refrigerators did not satisfy this requirement. Because the Authority used the
            small purchase procurement method to purchase the refrigerators, it needed to
            have purchased the refrigerators or have a commitment to purchase the
            refrigerators before March 17, 2010, to support its obligation.

            At the August 29, 2011 update meeting, the Authority provided a letter, dated
            March 1, 2010, addressed to Lowe's stating that it wanted to purchase 200
            refrigerators at $425 each. However, this letter (1) did not fully address the
            number of refrigerators actually purchased, as the Authority purchased 235
            refrigerators; (2) was not located in the Authority's original or HUD's files; and
            (3) did not have corresponding documentation from Lowe's showing that Lowe's
            ordered or planned to order the refrigerators.

            At the September 19, 2011 exit conference, the Authority provided a letter from
            Lowe’s which stated that the Authority purchased 235 refrigerators on March 1,
            2010, and the refrigerators were delivered at 25 units per delivery as requested by
            the Authority. However, the date of the letter conflicts with the purchase receipts
            as all of the receipts were dated after March 1, 2010. It also conflicts with the
            Authority’s assertion that Lowe’s could not possibly stock and deliver all 235
            units at one time; since, according to the letter, the Authority requested that
            Lowe’s deliver the refrigerators 25 per delivery. Lastly, the letter did not support
            that Lowe's ordered or planned to order the refrigerators.

            In addition, both of these letters contradict other documentation in the Authority’s
            files. Specifically, a letter dated March 8, 2010, from the Authority to HUD
            stated that Lowe's was the low bidder for the refrigerators and that the Authority
            would get in touch with Lowe's to schedule ordering and delivery. The first
            purchase receipt from Lowe’s was dated March 9, 2010. Meaning, based on the
            letter to HUD and the purchase receipt, the Authority had not communicated with
            Lowe's regarding ordering or delivery prior to March 8, 2010, despite the letter
            provided dated March 1, 2010.

            Further, the definition cited by the Authority is an excerpt of the full obligation
            definition in the PIH Notice 2009-12, and is not related to the purchase of
            refrigerators, as the excerpt quoted by the Authority is related to force account
            work which the Notice defines as “labor employed directly by the Authority either
            on a permanent or a temporary basis”. Lastly, as related to the Authority’s
            assertion that HUD approved the purchase of the additional refrigerators, the
            documentation provided by the Authority did not support this.




                                             23
            Therefore, we stand by our original conclusions and recommendations 1A and
            1B.

Comment 2   Despite its assertion in the written comments, when asked during the audit, the
            Authority stated that it did not complete a needs assessment. In addition, the
            Authority did not provide a copy of the needs assessment with its written
            comments, and we could not verify that a needs assessment was completed.
            Further, although the Authority stated that 35 refrigerators were used for
            replacement inventory, 66 refrigerators have remained in storage for over a year.
            Therefore, the Authority's purchase was excessive and not reasonable or
            necessary; and we stand by our original conclusion.

Comment 3   According to HUD, these letters were based on data in LOCCS as entered by the
            Authority and not a review of the supporting documentation. Therefore, we
            disagree that these documents support that HUD indicated the Authority had a
            100 percent valid obligation.

            In addition, the purpose of the OSRR form, provided by HUD, was to request
            submission of the procurement documentation from the Authority to support its
            obligations. The Authority only provided the first page of the OSRR forms in its
            response; however, pages 2 and 3 of the OSRR included a checklist of required
            obligation documentation to facilitate the review of the obligation documents.
            During the June 24, 2011 update meeting, the Authority indicated it did not use
            the OSRR checklist. In addition, the OSRR forms did not show that HUD had
            completed a review or made a determination that the Authority had fulfilled its
            obligation requirements. Additionally, during the exit conference on September
            19, 2011, HUD stated that the Authority had not provided all of its documentation
            to support its obligations; therefore, it had not completed a 100 percent review of
            the obligation documentation. Consequently, these documents do not support
            that HUD indicated the Authority properly obligated 100 percent of its Recovery
            Act grant.

            Therefore, we stand by our original conclusions.

Comment 4   We questioned a total of $109,511, which included $78,750 in ineligible costs
            related to the refrigerator purchase, $761 in ineligible costs related to the flooring
            work contract that were not obligated, and $30,000 on unsupported costs paid for
            construction management. As an attachment to the written comments, the
            Authority provided a cost analysis, to support the $30,000 of unsupported costs.

            In the cost analysis, the Authority stated that it set the bid amount at 10 percent of
            the HUD grant in the request for proposal. However, this effectively eliminated
            price comparison competition from bidders. Additionally, the Authority did not
            provide documentation to support its assertions of costs related to past experience
            or construction manager wages. Therefore, although the contract was advertised
            and there were six bidders, this does not support the cost reasonableness of the
            contract as the Authority may have been able to obtain the services at a lower


                                              24
            cost. Consequently, we could not revise our conclusions based on the Authority’s
            assertions alone and we stand by our original conclusion and recommendation 1C.

Comment 5   We acknowledge the Authority for taking action towards correcting its
            Federalreporting.gov reports and revised the report accordingly. The Authority
            provided evidence that it had amended its Federalreporting.gov reports and
            planned to resubmit its final report. The Authority should provide its final
            supporting documentation to HUD’s staff, which will assist the Authority with
            resolving recommendations 2A and 2B. Upon HUD’s review and approval, final
            action will be recorded in the department audit resolution tracking system after
            the report is issued.




                                           25
Appendix C

                            REPORTING REVIEW RESULTS

 Quarterly reporting period                               Reporting issues identified
July-September 2009 (3rd)        The project and award descriptions were not reported.
                                 Louisiana Housing Development Corporation was not reported as a vendor.
October-December 2009 (4th)      The award description was not accurate.
                                 Louisiana Housing Development Corporation was not reported as a vendor.
January-March 2010 (1st)         The quarterly activities/project description was not accurate.
                                 The grant funds received/ invoiced was not accurate.
                                 The expenditure amount was not accurate.
                                 Lowe’s and Louisiana Housing Development Corporation were not reported as
                                  vendors.
                                 The vendor payment amount reported to have been paid to Continental was not
                                  accurate.
                                 The vendor payment amount paid to Lowes was not reported.
                                 The number of jobs created or retained calculation was not accurate.
April-June 2010 (2nd)            The award description and quarterly activities/project description were not
                                  accurate.
                                 The grant funds received/ invoiced was not accurate.
                                 The expenditure amount was not accurate.
                                 The vendor payment amount reported to have been paid to Continental was not
                                  accurate.
                                 The number of jobs created or retained calculation was not accurate.
July-September 2010 (3rd)        The award description and quarterly activities/project description were not
                                  accurate.
                                 The grant funds received/ invoiced was not accurate.
                                 The expenditure amount was not accurate.
                                 The vendor payment amount reported to have been paid to Continental was not
                                  accurate.
                                 The number of jobs created or retained calculation was not accurate.
                                 The report was marked as final although all funds had not yet been expended.
October-December 2010 (4th)      A report was not submitted for this quarter because the report for the third
                                  quarter of 2010 was incorrectly marked as the final report.
January-March 2011 (1st)         A report was not submitted for this quarter because the report for the third
                                  quarter of 2010 was incorrectly marked as the final report.
April-June 2011 (2nd)            A report was not submitted for this quarter because the report for the third
                                  quarter of 2010 was incorrectly marked as the final report.
                                 This report should have been the final report.




                                                    26
